       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                  Grant for Hazard Mitigation Projects
                     Virgin Islands Police Department
                     Government of the Virgin Islands




Report No. 2003-I-0031                   MARCH 2003
                                                                              V-IN-VIS-0058-2002

                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                      Eastern Regional Office
                                    381 Elden Street - Suite 1100
                                      Herndon, Virginia 20170




                                                                                    March 31, 2003

Honorable Governor Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject:    Audit Report "Grant for Hazard Mitigation Projects, Virgin Islands Police Department,
            Government of the Virgin Islands" (No. 2003-I-0031)

Dear Governor Turnbull:

        This report presents the results of our audit of a $1.85 million grant from the Department of
the Interior for hazard mitigation projects administered by the Virgin Islands Police Department.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to Congress.

       Please provide a response to this report by May 21, 2003. The response should provide the
information requested in Appendix 4 and should be addressed to Mr. Roger La Rouche, Assistant
Inspector General for Audits, Office of Inspector General, U.S. Department of the Interior,
1849 C Street, NW (MS-5341), Washington, DC 20240; with a copy to our Caribbean Field Office,
Federal Building - Room 207, St. Thomas, VI 00802.

                                                  Sincerely,


                                                  William J. Dolan, Jr.
                                                  Regional Audit Manager

cc:   Police Commissioner
      Director of Management and Budget
[ Page intentionally left blank ]
                                                                             V-IN-VIS-0058-2002

                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Eastern Regional Office
                                   381 Elden Street - Suite 1100
                                     Herndon, Virginia 20170




                                                                                  March 31, 2003

Memorandum

To:        David Cohen
           Deputy Assistant Secretary for Insular Affairs

From:      William J. Dolan, Jr.
           Eastern Regional Audit Manager

Subject:   Final Audit Report "Grant for Hazard Mitigation Projects, Virgin Islands Police
           Department, Government of the Virgin Islands" (No. 2003-I-0031)

        The Office of Inspector General has completed an audit of the costs incurred by the
Government of the Virgin Islands under a $1.85 million grant for hazard mitigation projects from
the Office of Insular Affairs. The grant was accepted by the Governor of the Virgin Islands in
January 1995, and was administered by the Virgin Islands Police Department. By June 30, 2001,
the Virgin Islands had spent grant funds of $1.38 million. The remaining $470,000 was deobligated
by the Office of Insular Affairs and reprogrammed for use by the Virgin Islands Department of
Health.

        The audit did not identify any unauthorized use of grant funds. In addition, the audit
discusses three areas of noncompliance by the Virgin Islands with administrative requirements
pertaining to reconciling grant accounts, processing requests for grant reimbursements, and
documenting noncompetitive procurements.

       We made four recommendations to the Governor of the Virgin Islands to address the
noncompliance issues. We received a response from the Commissioner of Police, which generally
agreed with the recommendations. However, we did not receive a response to two of the
recommendations related to the Virgin Islands Office of Management and Budget.

       A response to this memorandum is not required. If you or your staff have any questions about
the report, please contact me at (703) 487-8011.
[ Page intentionally left blank ]
CONTENTS
                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RESULTS OF AUDIT   Financial Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                   Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
RECOMMENDATIONS

                   1. Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              11
APPENDICES         2. Prior Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             12
                   3. Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                 13
                   4. Status of Recommendations . . . . . . . . . . . . . . . . . . . . . .                    14
[ Page intentionally left blank ]
INTRODUCTION
                The Virgin Islands Police Department was established in
BACKGROUND      accordance with the Virgin Islands Code (3 V.I.C. Chapter 15)
                to (1) exercise general control over the enforcement of laws
                relating to public safety; (2) protect life and property; (3) ensure
                a safe, secure environment for the citizens of the Virgin Islands;
                and (4) administer the licensing of drivers and registration of
                motor vehicles.

                In January 1995, the Office of Territorial and International
                Affairs (now the Office of Insular Affairs) awarded a grant of
                $1.85 million to the Government of the Virgin Islands for
                hazard mitigation projects. The funds were awarded to provide
                the Virgin Islands Police Department with essential emergency
                communication capabilities in the event of a disaster. The
                approved spending plan for the grant allowed the Police
                Department to purchase communications base sites, portable
                radios and accessories, telephone interconnects, backup control
                stations, and five police vehicles. Of the $1.85 million grant,
                approximately $1.38 million was expended and $470,000 was
                deobligated.

                The Virgin Islands Office of Management and Budget was the
                single point of contact between the Office of Insular Affairs and
                the Government of the Virgin Islands. The Police Department
                was responsible for maintaining supporting documentation for
                grant expenditures and for preparing drawdown requests,
                financial status reports, and other required reports for
                submission to the Office of Insular Affairs through the Office
                of Management and Budget.


                The objective of the audit was to determine whether (1) the
OBJECTIVE AND   Police Department complied with grant terms and applicable
SCOPE           laws and regulations; (2) charges made against grant funds
                were reasonable, allowable, and allocable; (3) contracts were
                awarded competitively and administered in accordance with
                applicable laws and regulations; and (4) funds received through
                electronic transfers were appropriately deposited and accounted
                for in the financial management system. The scope of the audit
                included a review of grant-related transactions that occurred
                and policies and procedures in effect during fiscal years 1995
                to 2001.


                             1
              To accomplish our audit objective, we interviewed officials and
              reviewed grant-related records at the Police Department on
              St. Croix, and at the Office of Management and Budget and the
              Department of Finance on St. Thomas. We also made site visits
              to verify hazard mitigation purchases on St. Croix and
              St. Thomas.

              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records
              and other auditing procedures that were considered necessary
              under the circumstances. The "Standards" require that we
              obtain sufficient, competent, and relevant evidence to afford a
              reasonable basis for our findings and conclusions.

              As part of our audit, we evaluated the internal controls related
              to the accountability of grant funds and the awarding of
              contracts to the extent we considered necessary to accomplish
              the audit objective. Internal control weaknesses were identified
              in the areas of financial accountability and contract
              administration. These deficiencies are discussed in the Results
              of Audit section of this report. The recommendations, if
              implemented, should improve the internal controls in these
              areas.


              In February 2002, the Office of Inspector General issued the
PRIOR AUDIT   audit report "Administrative Functions, Virgin Islands Police
COVERAGE      Department, Government of the Virgin Islands." Deficiencies
              identified in the report related to property management and
              grant management at the Police Department, management of
              confidential funds at the Narcotics Strike Force, and grant
              management at the Law Enforcement Planning Commission
              (see Appendix 2).




                          2
RESULTS OF AUDIT
                           The Police Department used hazard mitigation funds for
OVERVIEW                   approved grant purposes, generally complied with grant terms
                           and applicable laws and regulations, and ensured that charges
                           against grant funds were allowable and allocable. However,
                           internal control weaknesses were identified in the areas of
                           financial accountability and contract administration, as follows:

                           ‘      Although the Police Department reconciled its
                                  grant-related records to the financial management
                                  system at the Department of Finance, it did not
                                  reconcile to grant records at the Office of Insular
                                  Affairs. As a result, the available grant balances shown
                                  in the Police Department’s internal records and the
                                  financial management system were incorrect.

                           ‘      Grant funds totaling $467,765 remained unused for an
                                  excessive period of time, and the Virgin Islands Office
                                  of Management and Budget did not communicate the
                                  reasons for the delays to the Office of Insular Affairs.
                                  As a result, the Office of Insular Affairs deobligated the
                                  $467,765 and reprogrammed the funds for projects at
                                  the Department of Health.

                           ‘      Reimbursement requests totaling $408,000 were
                                  submitted up to 16 months after local funds had been
                                  expended.

                           ‘      Five police vehicles costing $110,000 were purchased
                                  with grant funds without the benefit of competition.


                           The Police Department and the Virgin Islands Office of
FINANCIAL                  Management and Budget did not maintain adequate financial
ACCOUNTABILITY             accountability over hazard mitigation grant funds. As a result,
                           grant funds totaling $467,765 were deobligated by the Office of
                           Insular Affairs and local accounts were not timely reimbursed
                           for grant-related expenditures totaling $408,000.


Grant-Related Accounting   Although the Police Department maintained records to support
Records Were Not           the drawdown of grant funds, records at the Police Department
Adequately Reconciled      and the Department of Finance were not adequately reconciled
                           to the grant accounting records at the Office of Insular Affairs.

                                        3
As a result, errors in the Police and Finance records were not
detected. Specifically, we found that:

        - The Police Department’s records for the hazard
mitigation grant showed an available balance of $283,983 as of
June 5, 2001. However, when the Police Department attempted
to make a final payment to the main communications
contractor, it found that, according to the financial management
system, the account had a zero balance. Therefore, the Police
Department paid the communications contractor’s invoice from
a local account in the Emergency Services Fund.

        - A grant expenditure report from the financial
management system and the Police Department’s records both
indicated that a particular vendor payment of $3,600 had been
made from the hazard mitigation grant account. However, our
review of the cancelled check showed that the $3,600 payment
had been made from a local account. The Police Department
was unaware of the change in the funding source for this
payment.

       - Further, although the Police Department’s grant
records and the financial management system showed that two
other payments, of $177,382 and $2,800, had been made from
the hazard mitigation grant account, the cancelled checks
showed that these amounts also had been paid from a local
account. Records at both the Police Department and the Office
of Management and Budget showed that a drawdown request
had been prepared to reimburse the local account from grant
funds. However, the drawdown request was never submitted to
the Office of Insular Affairs for processing.

Therefore, a total of $467,765 was incorrectly shown as having
been expended from grant funds in both the Police
Department’s accounting records and the financial management
system. That amount, however, was shown in Office of Insular
Affairs’ records as still being available for use. If the grant
accounting records at the Police Department and the financial
management system had been reconciled to the records of the
Office of Insular Affairs, Police officials would have detected
the errors and been able to correct them accordingly.




            4
                         The Police Department should establish and implement policies
                         and procedures to ensure that accounting records for future
                         grants are reconciled on a monthly basis to the Department of
                         Finance’s financial management system and the grantor
                         agencies’ grant accounting records.

Unused Grant Funds       The Grants Manager at the Office of Insular Affairs told us that
Totaling $467,765 Were   in June 2001 the Office deobligated the unused balance of
Deobligated by the       $467,765 in the hazard mitigation grant account and
Grantor Agency           reprogrammed it for use by the Department of Health. This
                         action was taken because of delays by the Police Department in
                         using the remaining grant funds. According to the Grants
                         Manager, the decision to deobligate the $467,765 balance was
                         made after several telephone calls were made and letters were
                         written to the Office of Management and Budget requesting that
                         the remaining grant balance be used as quickly as possible for
                         approved grant purposes. For example, in a March 30, 2001
                         letter to the Office of Management and Budget regarding the
                         spending of hazard mitigation grant funds, the Grants Manager
                         stated:

                                . . . as I have been saying for a long time, it is
                                important that these grant projects get back on
                                track and that the money gets used.

                         In a June 25, 2001 followup letter to the Office of Management
                         and Budget, the Grants Manager stated:

                                . . . as we agreed . . . , I have deobligated the
                                balances from the anti-crime grant, the anti-drug
                                grant, the prison grant, and the hazard
                                mitigation grant." (Emphasis in original.)

                         Despite this notification to the Office of Management and
                         Budget, Police Department officials were not notified that the
                         unused grant balance of $467,765 was in danger of being
                         deobligated. During our audit we informed them that this had
                         already occurred.

                         According to the Police Department’s Director of Fiscal and
                         Property, delays in using the grant funds were related to delays
                         in contracting for and constructing concrete bunkers that would
                         protect the sensitive communications equipment from
                         vandalism, theft, and hurricanes. The contract for construction
                         of the bunkers went through the Government’s competitive
                         procurement process. The bunkers then had to be fabricated at

                                     5
                              a central location and moved to the remote locations where the
                              communications equipment was to be installed (see Figures 1
                              and 2). Bunkers were installed at three locations on St. Croix:
                              Recovery Hill, Christiansted; St. George’s Hill, Frederiksted;
                              and the Patrick Sweeney Police Headquarters, Orange Grove.
                              The communications contractor could not install the
                              communications equipment until the bunkers had been
                              constructed and moved to their permanent locations, and the
                              Police Department could not use the remaining grant funds until
                              the communications contractor completed the installation.
                              However, this was never communicated to the Office of Insular
                              Affairs.




                               Figure 2. Concrete Bunker at Patrick Sweeney Police
                               Headquarters, Orange Grove. (Office of Inspector General
Figure 1. Communications       photo)
Equipment at Recovery Hill,
Christiansted. (Office of
Inspector General photo)      The Grants Manager at the Office of Insular Affairs told us that
                              no one at the Office of Management and Budget explained to
                              her the reasons for the delays in using the final $467,765 of
                              grant funds. She said that more effective communication
                              between the two offices could have resulted in the Police
                              Department being given more time to use the remaining grant
                              balance.




                                          6
                         Accordingly, the Office of Management and Budget should
                         establish and implement policies and procedures to ensure that
                         open lines of communication on the status of future grant
                         projects are maintained among the local grantee agency (in this
                         case the Police Department), the Office of Management and
                         Budget, and the Office of Insular Affairs.


Reimbursement Requests   The Code of Federal Regulations (31 CFR 205.7) requires
for Local Expenditures   grantees to establish a financial management system that
Totaling $408,000 Were   includes procedures to minimize the time elapsed between the
Delayed by as Long as    transfer of funds from the U.S. Treasury and disbursement of
16 Months                the funds by the grantee. However, under the reimbursement
                         method, "A State shall request funds only after it has paid out
                         its own funds for program purposes, and a Federal agency shall
                         deposit funds in a State account the next business day after
                         receiving a request for funds."

                         The Police Department was under the reimbursement method
                         of funding for the hazard mitigation grant, whereby local funds
                         were expended prior to requesting reimbursement drawdowns
                         from the Office of Insular Affairs. However, we found that
                         drawdown requests were not timely and, therefore, were not
                         made in the best interest of the Government of the Virgin
                         Islands. Of the $1.38 million drawn down by the Police
                         Department during the period of 1996 to 2001, $408,000 was
                         requested an average of eight months after local funds had been
                         expended. One drawdown was made 16 months after local
                         funds had been expended. For example:

                                - In October 2000, the Police Department requested
                         reimbursement for $193,669 that had been expended from local
                         funds about 16 months earlier.

                                - Also in October 2000, the Police Department
                         requested reimbursement for $32,650 that had been expended
                         from local funds about 14 months earlier.

                                - In July 2001, the Police Department requested
                         reimbursement for $48,960 that had been expended from local
                         funds about 6.5 months earlier.

                                - In August 1996, the Police Department requested
                         reimbursement for $110,000 that had been expended from local
                         funds about 2.5 months earlier.


                                     7
                 The Police Department official responsible for preparing
                 drawdown requests told us that, initially, he was not aware that
                 he had to prepare drawdown requests for reimbursement. He
                 was under the impression that the funds were "sitting in an
                 account" in the Virgin Islands and the transfers would be made
                 automatically once the checks for payments to contractors were
                 prepared by the Department of Finance. He said that he started
                 preparing the drawdown requests after the Senior Grants
                 Analyst at the Office of Management and Budget informed him
                 that he needed to prepare them. However, even then, we found
                 that reimbursement requests were sometimes delayed. The
                 Police official stated that these delays occurred because there
                 was lag time between the date when payments to vendors were
                 disbursed by the Department of Finance and the date when he
                 received notification of such disbursements.

                 Although the Code of Federal Regulations did not provide a
                 specific time period for reimbursement requests, we believe that
                 prudent business practice would dictate that a minimal amount
                 of time be allowed to transpire between the date of
                 disbursement of local funds and the date of reimbursement from
                 Federal grant funds. For this reason, we believe that the Virgin
                 Islands Office of Management and Budget should establish and
                 implement policies and procedures that require local
                 Government agencies to request grant reimbursements no later
                 than one week after local funds are expended.


                 The Code of Federal Regulations (43 CFR 12.76) allows a state
CONTRACT         to follow the same policies and procedures it uses for
ADMINISTRATION   procurement of its non-Federal funds when procuring property
                 and services under a grant, provided the policies and procedures
                 conform to applicable Federal laws and regulations. The Virgin
                 Islands Code (31 V.I.C. Chapter 23) contains the procurement
                 requirements to ensure that all Government purchases and
                 contracts for supplies, materials, equipment, and contractual
                 services are based on competitive bids.

                 In most instances, the Police Department (through the
                 Department of Property and Procurement) awarded
                 grant-related contracts competitively and administered them in
                 accordance with applicable laws and regulations. Competitive
                 bidding requirements were followed in the selection of the
                 communications contractor and the contractor who constructed
                 the concrete communications bunkers.


                             8
However, in 1996, the Police Department did not use
competitive bidding to purchase five motor vehicles that were
approved under the grant by the Office of Insular Affairs. The
five vehicles were purchased on a sole source basis from a local
automobile dealer at a total cost of $110,000. We found no
documentation in the procurement or grant files that
competitive bidding was utilized in this instance. The only
document in the files supporting the purchase of the vehicles
was an April 1996 price quotation provided by the local
automobile dealer. This price quotation was also used as the
invoice for payment purposes.

We asked the official responsible for procurement activities at
the Police Department about the use of noncompetitive
procurement. The official said that competitive bids were not
obtained because the vehicles were needed as quickly as
possible. The Virgin Islands Code has specific exemptions
from competitive procurement, along with specific
documentation requirements that must be followed for each
type of exemption. However, these documentation requirements
were not complied with.

The Police Department should ensure that existing laws,
regulations, policies, and procedures regarding the use of
competitive procurement are followed. In doing so, the
Government would more likely obtain the best possible product
or service at the best possible price.




            9
RECOMMENDATIONS
                          We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR OF the Commissioner of Police to:
THE VIRGIN ISLANDS
                                 1. Establish and implement policies and procedures to
                          ensure that internal accounting records for future grants are
                          reconciled on a monthly basis to the Department of Finance’s
                          financial management system and the grantor agencies’ grant
                          accounting records.

                                 2. Ensure that existing laws, regulations, policies, and
                          procedures regarding the use of competitive procurement are
                          followed, so that the Government obtains the best possible
                          product or service at the best possible price.

                          We recommend that the Governor of the Virgin Islands direct
                          the Director of Management and Budget to:

                                  3. Establish and implement policies and procedures to
                          ensure that open lines of communication on the status of future
                          grant projects are maintained among the local grantee agency,
                          the Office of Management and Budget, and the Office of
                          Insular Affairs or other Federal grantor agency.

                                  4. Establish and implement policies and procedures to
                          ensure that local Government agencies request grant
                          reimbursements for future grants no later than one week after
                          local funds have been expended for grant purposes.


                          The November 29, 2002 response (Appendix 3) to the draft
AUDITEE RESPONSE          report from the Police Commissioner expressed concurrence
                          with the recommendations. However, the response did not
                          provide target dates for implementation of corrective actions.
                          Additionally, we did not receive a response from the Office of
                          Management and Budget with regard to Recommendations 3
                          and 4. Therefore, we have requested additional information
                          concerning a corrective action plan (see Appendix 4).




                                      10
APPENDIX 1 - MONETARY IMPACT
                                          Funds To Be Put
FINDING AREA                               To Better Use*
Financial Accountability:
   Deobligated Funds                         $467,765

   Total                                     $467,765




__________
* Amount represents Federal funds.




                                     11
APPENDIX 2 - PRIOR AUDIT REPORT
                             The February 2002 audit report "Administrative Functions,
OFFICE OF INSPECTOR Virgin Islands Police Department, Government of the Virgin
GENERAL REPORT      Islands" (No. 2002-I-0010) stated that the Police Department
                             did not have adequate physical control over police firearms and
                             evidentiary material and accounting control over Federal
                             grants; the Narcotics Strike Force used funds from a
                             confidential account for purposes that were of a questionable
                             value to undercover work; and the Law Enforcement Planning
                             Commission did not adequately manage Federal grants. Our
                             current audit disclosed that deficiencies related to the
                             management of Federal funds existed with regard to the hazard
                             mitigation grant.




                                         12
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                   13
APPENDIX 4 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference              Status                       Action Required

        1 to 4           Management         For each recommendation, provide a
                         concurs;           corrective action plan that includes the target
                         additional         date and title of the official responsible for
                         information        implementation.
                         required.




                                       14
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
